IN THE
SUPREME COURT OF THE UNITED STATES
Case No 20-629
Petitioners/ Relators Janies Beggs and his Wife Joyce Beggs et ux
Vs.
Respondents Beverly Story et al
PROOF OF SERVICE
ners James Beggs^p^flv^
----- 'and his wife Joyce
The^etiti
Begg
do swear ancrdeclare that on this date January 6, 2021 as
Require uby me Supreme Court under Rule 29 Petitioners as include a filling
fee of $200.00 for Rehearing, Sending to all Parties to the above proceeding or
that party’s counsel of Record, and on every other person required to be
served under 28 U. S. C. 2403 (a) and the Solicitor General of the United
States Room 5616 Department of Justice 950 Pennsylvania Ave., N. W.
Washington, D C 20530-0001. As Said Acts of Congress and Presidential
Executive Orders and Proclamation and Federal Programs Voided and Placed
in Questions. With Copies to be filed by the Clerk of the Forth Circuit Court,
Virginia Supreme Court, Virginia Beach Court Systems, Hampton Circuit
Court. With Proof of Service By an Affidavit of Petitioners Petition
Rehearing, given to all Respondent an a ENVLOPE CONTAINING these
DOCUMENTS IN THE UNITED STATE SUPREME COURT by delivery of a
third-party commercial Carrier for delivery within 3 days. With The facts
contained in said Petitioners Petition for Rehearing are true and accurate to
the best of the Petitioners’ knowledge and belief, with the Right word of less
than 3,000.00 from pages 1-14.
We James BeggFp^W^rp^gnd Joyce Beggs^^jL^^t^-dfeclare under
penalty of perjury that the foregoing is true an^correclfsend to the following:
Beverly Story a Former Associate City Attorney
from The Law Office of Eric O. Moody”,
Chesapeake Office
2200 Dunbarton Drive Suit B
Chesapeake, Virginia 2332$

Respondent
Paulette D. Franklin Jenkins
Tort Claim Unit Norfolk
9620 Maryland Ave.
Bldg A-50 Suite 205
Norfolk Va. 23511

“Notes: This Attorney has tfeen t^e)ll|
Disbarred, but will serve her address
listing her as a Non- Interesi 8^
sending it to her Address as l«qrmeaby
Supreme Court Rules”.

Respondent Attorney Cynthia A. King
Past Guardian Litems For Lauryn
P. O. Box 8483
Virginia Beach, Virginia 23450
Respondent Cunningham Lindsey U. S. LLC,
fk/a Cunningham Linsey of Virginia Beach

1

Chad E. Kurtz, Esq.
Cozen O OCONNOR, P. C.
1200 19th Street NW. Suite 300
Washington DC 20036
The Law Office of Eric O. Moody
On Behalf of Respondent
Beverly Story
Eric O Moody & Associates
355 Crawford Street, Suite 810
Portsmouth, Va. 23704

For Respondent Beverly Story

Attorney Nicole A. Belote
Of Kozak, Davis, Renninger & Belote P.C.
Guardian Litems For Lauryn
355 Crawford Street Suite 700
Portsmouth, Virginia 23704

Replaced Guardian Litems for
“Said Child” for Respondent
Cynthia King

Respondent
Attorney Asha Pandya
125 St. PaulBLVD. Suite 110
Norfolk, Virginia 23510

“Notes: This Attorney has asked me not to
serve her. I have list her as a Non- Interest
Party, sending it to her Address as
required by Supreme Court Rules”.

Attorney Afshin Farashahi
One Columbus Center Sutie 604
Virginia Beach,Va 23462

Respondent awaiting Discretion to
said complex cases of this Court.

U S Attorney General
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, D C 20530-0001
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave.,
N. W. Washington, D C 20530-0001
Richard Ottinger
American Banker Insurance
Company of Florida “Assurant” DBA
Vandeventer Black LLP
101 W. Main Street
5000 World Center
Norfolk, Va. 23501

3~

Richard A Saunder, Esquire
Attorney for GEICO Insurance Agency, Inc.
6160 Kempsville Circle, Suite 34IB
Norfolk, Virginia 2350
FEMA Office of Equal Rights,
500 C. Street S W, Room 617A
Washington, DC 20472
U.S. Department of Justice,
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
FEMA-Office of Equal Rights
ATTN: CIVIL RIGHTS TITLE VI PROGRAM
300 D St, SW, 8th floor
Washington, D.C. 20472-350

Respondent State Farm Insurance Company and Agents
1500 State Farn Blv.
Charlottesville, Va 22909
Four Circuit Court of Appeal Clerk Office
Lewis F. Powell Jr. Courthouse & Annex
1100 East Main Street, Suite 501
Richmond Va. 23219

Virginia Supreme Court
100 North 9th Street 5th Floor
Richmond, VA 23219
Virginia Beach Circuit Court
for All Virginia Beach Court Systems
Clerk Office
2425 Nimmo PRWY
Virginia Beach, Virginia 23456
Hampton Circuit Court
Chief Judge
237 N. King Street
Hampton Virginia
Walter E. Hoffinan
United State Courthouse of Virginia Eastern
Norfolk District Court of Newport News
600 Granby Street
Norfolk, Virginia 23510

?

Newport News United States District Court
2400 West Avenue
Newport News, Va. 23607
Home Paramount Pest Control INC.
501 N Witchduck Rd.
Virginia Beach, Virginia 23462
Cornelius Beggs

Subscribed and sworn to before me this

20 a I

k

day of

S'

*%-ii
REG #
§°>:£
1
7833698 £?:

&I

3

